ES, IG-99-028, Management of NASA-held Equipment
MANAGEMENT OF NASA-HELD EQUIPMENT
IG-99-028
Executive Summary
Background
NASA buys or fabricates many types of equipment to carry out its mission and
programs.  Some of the equipment is assigned to, used, and controlled by
NASA employees and is referred to as "NASA-held" equipment.  Equipment is
also provided to NASA contractors who are responsible for establishing their
own procedures and systems to control and account for it as
"contractor-held" equipment.  As of July 1998, NASA-held equipment included
about 605,000 items with a recorded cost of $4.7 billion.  Our audit
assessed a total sample frame of 173,140 equipment items, costing $1.2
billion, at Goddard Space Flight Center (Goddard), Marshall Space Flight
Center (Marshall), and Stennis Space Center (Stennis).
Government property management regulations and NASA implementing policies
require that all equipment be effectively accounted for and controlled,
optimally used, and properly maintained and disposed of.  Two primary
internal controls for managing NASA-held equipment are the policies in
NASA Handbook (NHB) 4200.1D,  "Equipment Management Manual" (April 1992),
and the NASA Equipment Management System (NEMS), which is the automated
inventory system the Agency uses to identify, account for, and control
equipment.(1)  NASA Headquarters establishes the overall equipment management
policies, while the Centers are expected to establish implementing policies
and procedures to ensure effective and efficient equipment management and
control.
Objective
The audit objective was to evaluate management of NASA-held equipment with
respect to timely and accurate entry into the inventory, effective control
and use, effective  maintenance, and appropriate redistribution or
disposal.  Further details on the audit objective, scope, and methodology
are in Appendix A.
Results of Audit
We identified no significant problems in verifying the existence of
NASA-held equipment at Goddard, Marshall, and Stennis.  Also, maintenance
on the sampled equipment was timely and cost-effective.  However, existing
management controls over NASA-held equipment did not adequately ensure that
all NASA-held assets were being fully used and effectively accounted for
and managed. Specifically, we identified equipment at the three Centers
for which data in the NEMS was incomplete or inaccurate and for which data
had not been recorded into the inventory in a timely manner.  Also,
equipment was being underused but not made available for redistribution
or disposal, and equipment fit the description of controlled equipment
but had not been properly tagged and recorded in the NEMS.
We observed the same kinds of problems on some nonsample items that we
also reviewed during the audit.  Although those items were not part of our
sample and are not included in our sampling projections and results, we
believe they provide additional evidence of the problems noted with the
sample items and reinforce the need to take corrective actions.
The problems were primarily caused by weaknesses in NEMS input controls,
lack of compliance with or misinterpretation of extant control procedures,
and lack of accountability for and emphasis on optimizing equipment use.
As a result, the Agency's ability to meet its goals to conserve and minimize
resources and to effectively account for and control valuable assets is
significantly diminished.
Although management took actions during our audit to address problems
related to some sampled items, more comprehensive actions are needed to
eliminate and prevent the types of problems we identified.  Also, we
recognize that NEMS is a legacy system and that the Agency is planning
to reengineer asset management policies and replace the related systems
in the future.  However, some reasonable corrective actions are needed and
prudent, in our opinion, to improve how equipment is used and managed until
those new changes and systems are operational.
Recommendations
We recommend that management improve the completeness and accuracy of NEMS
data, ensure that equipment is used to the fullest extent possible and is
promptly disposed of when no longer needed, and ensure that all controlled
equipment is tagged and entered into the property records in a timely
manner.
Management's Response
Management concurred with all the recommendations.  Actions are planned to
reemphasize and clarify user responsibilities for reporting changes to their
equipment so NEMS can be updated and equipment use can be improved.  To
promote timely tagging of all equipment, metrics will be placed in each
Center's performance-based contract for equipment management and will be
evaluated each year.  Also, managers at the annual Senior Equipment
Management Officer (SEMO) meeting in June 1999 will discuss the issues
cited in the report.
Evaluation of Management's Response
Management's proposed actions on the recommendations are considered
responsive.
FOOTNOTE
1.  Only "controlled" equipment
is entered into NEMS and managed under special procedures. A controlled
equipment item is one that has an acquisition cost of $1,000 or more, and
an estimated service life of 2 years or more and that will not be consumed
or expended in an experiment.  Controlled equipment also includes items
costing less than $1,000, such as weapons, cameras, and computers, if they
are considered "sensitive" due to losses or other factors.